No.

IN THE
SURPREME COURT OF THE UNITED STATES

Mark A. Beckham – Petitioner
vs.
United States of America – Respondent

CERTIFICATE OF SERVICE
I, Justin K. Gelfand, do swear or declare that on this date, June 28, 2019, as
required by Supreme Court Rule 29, I have served the enclosed Application for
Extension of Time to File a Petition for a Writ of Certiorari on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 28, 2019

/s/ Justin K. Gelfand
Justin K. Gelfand

